20-35676

John Garrett Smith, #351176
SCCC - STAFFORD CREEK CORRECTIONS CENTER
191 Constantine Way
Aberdeen, WA 98520

/

\

*.
4

r

1*)
\ir

* •>

Case: 20-35676, 08/19/2020, ID: 11795448, DktEntry: 2, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 19 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOHN GARRETT SMITH,
Petitioner-Appellant,
v.

RONALD HAYES,

No.

20-35676

D.C. No. 3:19-cv-05394-RBL
Western District of Washington,
Tacoma
ORDER

Respondent-Appellee.
Before: SILVERMAN, McKEOWN, and BRESS, Circuit Judges.
A review of the record reflects that on July 21, 2020, the district court
entered an order denying appellant’s motion to recuse the magistrate judge, and
issuing an indicative ruling pursuant to Federal Rule of Civil Procedure 62.1
pending a remand or disposition of appellant’s prior interlocutory appeal No.
20-35606. On July 23, 2020, this court dismissed appellant’s prior interlocutory
appeal No. 20-35606.
Appellant filed a notice of appeal dated July 24, 2020, challenging the
district court’s July 21, 2020 order. On July 27, 2020, the district court entered a
final order and judgment denying appellant’s 28 U.S.C. §2254 habeas petition, and
denying a certificate of appealability.
A review of the record demonstrates that this court lacks jurisdiction over
this appeal because the July 24, 2020 order and its included indicative ruling are
DA/Pro Se

Case: 20-35676, 08/19/2020, ID: 11795448, DktEntry: 2, Page 2 of 2

not final or appealable. See 28 U.S.C. § 1291; United States v. Washington, 573
F.2d 1121, 1122 (9th Cir. 1978) (order denying motion to disqualify judge is not
final or appealable). Consequently, this appeal is dismissed for lack of jurisdiction.
A review of the district court docket reflects that, to date, appellant has not
filed a new notice of appeal from the district court’s final order and judgment
entered on July 27, 2020.
DISMISSED.

DA/Pro Se

2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

AFP. A » /i
FILED I
SEP 10 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOHN GARRETT SMITH,
Petitioner - Appellant,
v.

No. 20-35676
D.C. No. 3:19-cv-05394-RBL
U.S. District Court for Western
Washington, Tacoma

RONALD HAYES,
MANDATE
Respondent - Appellee.

The judgment of this Court, entered August 19, 2020, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

Att> a- %
UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

SEP 2 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOHN GARRETT SMITH,
Petitioner-Appellant,
v.
RONALD HAYES,

No.

20-35676

D.C. No. 3:19-cv-05394-RBL
Western District of Washington,
Tacoma
ORDER

Respondent-Appellee.
This appeal was dismissed on August 19, 2020. The Clerk shall transmit
appellant’s notice of appeal of the district court’s July 27, 2020 order and
judgment, received by this court on August 31, 2020 (Docket Entry No. 3), to the
^'s S.-Z-H.ZJ* Appeal)
district court for filing. See Fed. R. App. P. 4(d). The court will take no further
action in this docket on appellant’s August 31, 2020 filing.
This appeal No. 20-35676 remains closed.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Delaney Andersen
Deputy Clerk
Ninth Circuit Rule 27-7

DA/Pro Se

-fa Wjc

Case 3:19-cv-05394-RBL Document 50 Filed 07/21/20 Page 1 of 2

HONORABLE RONALD B. LEIGHTON

1
2
3
4
5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

7
8

JOHN GARRETT SMITH,

CASE NO. C19-5394RBL

9
Petitioner,
10

v.

11

RON HAYNES,

12

ORDER

Respondent.

13
14
15

THIS MATTER is before the Court on Petitioner Smith’s “Objections/Motion for the

16

Court to Immediately Replace JRC” [Dkt. #43], Smith objects to Magistrate Judge Creatura ‘s

17

Report and Recommendation [Dkt. # 42], recommending that this Court DENY Smith’s § 2254

18

Petition, decline to issue a Certificate of Appealability, and Revoke Smith’s in forma pauperis

19

status in the event of any appeal.

20

Smith also asks this Court to force Magistrate Judge Creatura to Recuse himself. But

21

Smith already asked Judge Creatura to do so [Dkt. # 44], he declined [Dkt. # 46], Chief Judge

22

Martinez affirmed [Dkt. # 47], and Smith appealed [Dkt. # 48], Smith’s Motion to force Judge

23

Creatura to recuse is DENIED.

24

ORDER - 1

Case 3:19-cv-05394-RBL Document 50 Filed 07/21/20 Page 2 of 2

1

Under Fed. R. Civ. P. 62.1, this Court notifies the Ninth Circuit that, if the matter were

2

remanded for the limited purpose of ruling on the pending Report and Recommendation, the

3

Court would enter the following order:

4

(1) The Report and Recommendation [Dkt. # 42] is ADOPTED;

5

(2) Petitioner’s §2254 habeas petition [Dkt. # 7] is DENIED;

6

(3) For the reasons articulated in the R&R, the Court will NOT issue a Certificate of

7

Appealability; and

8

(4) Petitioner’s in forma pauperis status is REVOKED in the event of an appeal.

9

IT IS SO ORDERED.

10

Dated this 21st day of July, 2020.

11
12
Ronald B. Leighton
United States District Judge

13
14
15
16
17
18
19
20
21
22
23
24

ORDER - 2

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 1 of 20

1
2
3
4
5
6
7
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

8
9
10

JOHN GARRETT SMITH,

11

Petitioner,

12

v.

13

RON HAYNES,

CASE NO. 3:19-cv-05394-RBL-JRC
REPORT AND RECOMMENDATION
NOTED FOR: June 5, 2020

Respondent.

14
15
16

The District Court has referred this action to United States Magistrate Judge J. Richard

17

Creatura. Petitioner John Garrett Smith, proceeding pro se, filed his federal habeas petition,

18

pursuant to 28 U.S.C. § 2254, seeking relief from his state court judgment and sentence. See Dkt.

19

7.

20

Petitioner seeks habeas relief from his conviction by jury verdict of second-degree attempted

21

murder and second-degree assault. Dkt. 7. Petitioner raises four grounds for relief. Id. Petitioner

22

has presented his claims to the state courts on direct appeal and through multiple collateral

23

attacks. After previously dismissing petitioner’s first federal petition without prejudice for failure

24

REPORT AND RECOMMENDATION - 1

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 2 of 20

1

to exhaust, the Court now concludes that petitioner’s claims lack merit and the state court’s

2

adjudication was not contrary to, or an unreasonable application of, clearly established federal

3

law. Petitioner’s first ground for relief that the trial court lacked jurisdiction fails to state a

4

federal constitutional ground for relief and is not supported by any state law requirements. In

5

Ground 2, petitioner alleges that the prosecution failed to present exculpatory evidence, but he

6

has failed show that evidence was falsified or that the prosecution was aware of any alleged

7

falsification and failed to provide that information to petitioner. In Ground 3, petitioner alleges

8

that the police unlawfully acquired his cell phone, but he fails to state a constitutional ground for

9

relief and his claims are refuted by the record. In Ground 4, petitioner alleges that he is actually

10

innocent, but offers no evidence to support his allegations, and merely challenges the sufficiency

11

of the evidence presented at trial. Therefore, the undersigned recommends that the petition be

12

denied and a certificate of appealability not be issued. The Court also recommends that all

13

pending motions be denied as moot. See Dkt. 39.

14

L

Background

15

A. Factual Background

16

On December 3, 2014, in a Clark County Superior Court bench trial, petitioner was found

17

guilty of attempted second-degree murder and second-degree assault. See Dkt. 16-1 at 937.

18

Petitioner was sentenced to 144 months confinement on January 30, 2015. See id. at 937-45. The

19

Washington Supreme Court summarized the facts of petitioner’s case as follows:

20
21
22
23

John Garrett Smith and Sheryl Smith were married in 2011. On the evening of June
2, 2013, the Smiths engaged in an argument at their home that turned violent. Mr.
Smith punched and strangled Mrs. Smith to the point of unconsciousness and then
left their home. When Mrs. Smith regained consciousness, her eyes were black and
swollen shut, her face was swollen and bleeding, and she had difficulty breathing.
Mrs. Smith was hospitalized for several days due to the severity of her injuries,
which included a facial fracture and a concussion. For months after the assault, she
suffered severe head pain, double vision, nausea, and vertigo.

24

REPORT AND RECOMMENDATION - 2

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 3 of 20

1
Mrs. Smith’s memory of the attack at the time of trial was limited; she recalled:
2
3

I’m being strangled. Garrett’s on top of me. My face is being punched. I feel
like I’m in a very dark place inside of my head, and three punches, and I’m
being called a fat bitch, and I thought I was going to die.

4
5
6
7
8
9

Other evidence filled in Mrs. Smith’s memory gaps, including her written
statement, which was read into the record. Additionally, there was a recording made
of the incident. During the incident, Mr. Smith used the home’s landline cordless
phone to dial his cell phone in an attempt to locate the cell phone. The cell phone’s
voice mail system recorded the incident because Mr. Smith left the landline open
during his attempt to find his cell phone. This voice mail contained sounds of a
woman screaming, a male claiming the woman brought the assault on herself, more
screams from the female, name calling by the male, and the following exchange:
MALE: There, are you happy now?

10

(Woman screaming.)

11

MALE: You brought this shit on. I have never done this. You and your
fucking Mexican. Fuckcocking three-timer. You’re not going to get your
(inaudible) three check.

12
13
14

WOMAN: Get away.

15

MALE: No way. I will kill you.

16

WOMAN: I know.

17

[More female screaming and name calling by the male followed until the
recording ended.]

18
19
20
21
22
23

At trial, the female in the recording was identified as Sheryl Smith and the male as
the defendant, John Garrett Smith. Mr. Smith fled the scene without his cell phone
after strangling Mrs. Smith to unconsciousness. The cell phone ended up in the
possession of Skylar Williams, Mrs. Smith’s daughter and Mr. Smith’s
stepdaughter, after Ms. Williams returned to the house and helped her mother
complete a 911 call.
On the 911 call, Mrs. Smith can be heard gasping and pleading for help. She
reported being unable to see. Mrs. Smith explained to the 911 operator that she had
been “beat to a pulp” by John Garrett Smith. Ms. Williams, who had just arrived
home, then grabbed the phone and told the 911 operator that her mother’s face is

24

REPORT AND RECOMMENDATION - 3

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 4 of 20

1
2
3
4
5
6

“like ten times the size of normal and gushing blood” and that “she can’t open her
eyes because her face is so swollen.” Following the arrival of the police and
paramedics, Mrs. Smith received medical care and was transferred to a hospital.
While at the hospital, Ms. Williams looked at Mr. Smith’s cell phone and saw a
missed call and a voice mail from the family landline left around the time of the
incident. She listened to the voice mail and then played it for an officer. The police,
after hearing the voice mail, seized the cell phone and executed a search warrant on
it. While at the hospital, Ms. Williams received multiple calls from Mr. Smith.
During one of those calls, Mr. Smith indicated that he thought he should book a
flight and leave town. Ms. Williams told him to meet her at the house instead, but
her plan was to send the police to meet Mr. Smith.

7
8
9
10
11
12
13
14
15
16
17
18

The police arrested Mr. Smith at the home. At that time, he denied any physical
altercation with Mrs. Smith. But the next morning, Mr. Smith asked a detective, “Is
she going to make it?” despite not receiving any information from the detective
about Mrs. Smith’s injuries.
The State charged Mr. Smith with attempted first degree murder, attempted second
degree murder, first degree assault, and second degree assault for the incident
occurring with Mrs. Smith on June 2, 2013. Prior to trial, Mr. Smith filed a motion
to suppress the audio recording found on his cell phone that captured part of the
incident, including him threatening to kill his wife. Mr. Smith argued that Ms.
Williams had unlawfully intercepted the recording pursuant to the privacy act,
RCW 9.73.030, when she listened to the voice message left on his phone. The trial
court denied the motion to suppress, ruling that Ms. Williams’s conduct did not
constitute an interception. The court also ruled that RCW 9.73.030(l)(b), which,
. . . prohibits the recording of private conversations without consent, did not apply
because the information was inadvertently recorded, noting that “[a]t the time this
information was recorded, nobody was trying to intercept or record what was
occurring.”
The case proceeded to a bench trial. The trial court found Mr. Smith guilty of
attempted second degree murder, second degree assault, and the related special
allegations of domestic violence, but acquitted him of the remaining counts and the
aggravator. Mr. Smith was sentenced to a standard range sentence of 144 months.

19
Dkt. 16-2, pp. 386-90 (internal citations and footnotes omitted); State v. Smith, 189 Wash. 2d
20
655, 657-61 (2017).
21
22
23
24

REPORT AND RECOMMENDATION - 4

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 5 of 20

1

B. Procedural Background

2

1. Direct Appeal

3

Petitioner challenged his judgment and sentence on direct appeal. See Dkt. 16-1 at 1086-

4

1154. The Washington Court of Appeals affirmed petitioner’s second-degree assault conviction

5

and reversed and remanded petitioner’s attempted second-degree murder conviction. Dkt. 16-2 at

6

38-58. The State sought discretionary review by the Washington Supreme Court See id. at 60-

7

108. The Washington Supreme Court granted the State’s petition for review and, on November

8

22, 2017, the Washington Supreme Court reversed the Washington Court of Appeals decision

9

and reinstated petitioner’s attempted second-degree murder conviction. Id. at 386-98. The

10

Washington Court of Appeals issued its mandate on January 18, 2018. Id. at 421. The United

11

States Supreme Court denied certiorari on October 9, 2018. Smith v. Washington, 139 S.Ct. 324

12

(2018).

13

2. Personal Restraint Petitions

14

Petitioner filed multiple collateral attack motions and personal restraint petitions

15

(“PRPs”) seeking state post-conviction relief. See Dkt. 15; Dkt. 16-2 at 424-79, 505-38; Dkt. 16-

16

3 at 2-29, 93-107, 110-87; Dkt. 16-4 at 2-55, 106-31, 145-47. Because respondent does not

17

allege that the petition is untimely or unexhausted, the Court finds that it is not necessary to

18

detail petitioner’s state collateral attacks.

19
20

3. Federal Petitions
Petitioner filed a previous federal habeas petition that was dismissed without prejudice

21

due to petitioner’s failure to exhaust his claims. See Smith v. Haynes, 3:17-cv-06019-BHS (W.D.

22

Wash.). On May 8, 2019, petitioner initiated his second federal petition. Dkt. 1. In his amended

23

petition (Dkt. 7, “the petition”), petitioner raises the following four grounds for relief:

24

REPORT AND RECOMMENDATION - 5

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 6 of 20

1

1. “Ultra-vires restraint due to void ab initio charge that failed to acquire ratification of

2
3

indictment[.]” Dkt. 7 at 5.
2. “Brady violations - refusal to acknowledge suppression of exculpatory evidence.” Dkt. 7

4
5

at 7.
3. “Theft of petitioner’s liberty is a criminal stalking horse concealing thefts of his property

6
7
8

(physical and intellectual).” Dkt. 7 at 8.
4. “Actual innocence.” Dkt. 7 at 10.
Dkt. 7.

9

On September 17, 2019, respondent filed an answer and memorandum of authorities.

10

Dkt. 15. In the answer, respondent asserts that petitioner has not stated constitutional claims and

11

the state court’s adjudication of the grounds raised in the petition was not contrary to, or an

12

unreasonable application of, clearly established federal law. Id. Petitioner filed a traverse on

13

September 24, 2019. Dkt. 17. The case was stayed while petitioner pursued an interlocutory

14

appeal and became ready for the Court’s consideration on March 13, 2020. See Dkt. 25, 37. On

15

May 4, 2020, Magistrate Judge David W. Christel entered an order recusing himself from all

16

further proceedings. Dkt. 41. The same day, the case was reassigned and referred to the

17

undersigned magistrate judge. See id. (The case remains assigned to District Judge Ronald B.

18

Leighton.).

19

II.

20

Discussion
Respondent maintains that petitioner has not alleged constitutional violations and the

21

state courts’ adjudication of the grounds raised in the petition was not contrary to, or an

22

unreasonable application of, clearly established federal law. Dkt. 15.

23
24

REPORT AND RECOMMENDATION - 6

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 7 of 20

1

A. Standard of Review

2

Pursuant to 28 U.S.C. § 2254(d)(1), a federal court may not grant habeas relief on the

3

basis of a claim adjudicated on the merits in state court unless the adjudication “resulted in a

4

decision that was contrary to, or involved an unreasonable application of, clearly established

5

Federal law, as determined by the Supreme Court of the United States.” In interpreting this

6

portion of the federal habeas rules, the Supreme Court has ruled a state decision is “contrary to”

7

clearly established Supreme Court precedent if the state court either (1) arrives at a conclusion

8

opposite to that reached by the Supreme Court on a question of law, or (2) confronts facts

9

“materially indistinguishable” from relevant Supreme Court precedent and arrives at an opposite

10
11

result. Williams v. Taylor, 529 U.S. 362, 405 (2000).
Moreover, under § 2254(d)(1), “a federal habeas court may not issue the writ simply

12

because that court concludes in its independent judgment that the relevant state-court decision

13

applied clearly established federal law erroneously or incorrectly. Rather, that application must

14

also be unreasonable.” Id. at 411; see Lockyer v. Andrade, 538 U.S. 63, 69 (2003). An

15

unreasonable application of Supreme Court precedent occurs “if the state court identifies the

16

correct governing legal rule from [Supreme Court] cases but unreasonably applies it to the facts

17

of the particular state prisoner’s case.” Williams, 529 U.S. at 407. In addition, a state court

18

decision involves an unreasonable application of Supreme Court precedent ‘“if the state court

19

either unreasonably extends a legal principle from [Supreme Court] precedent to a new context

20

where it should not apply or unreasonably refuses to extend that principle to a new context where

21
22
23
24

REPORT AND RECOMMENDATION - 7

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 8 of 20

l

it should apply.’” Walker v. Martel, 709 F.3d 925, 939 (9th Cir. 2013) (quoting Williams, 529

2

U.S. at 407).

3

The Anti-Terrorism Effective Death Penalty Act (“AEDPA”) requires federal habeas

4

courts to presume the correctness of state courts’ factual findings unless applicants rebut this

5

presumption with “clear and convincing evidence.” 28 U.S.C. § 2254(e)(1). Further, review of

6

state court decisions under §2254(d)(l) is “limited to the record that was before the state court

7

that adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 180-81 (2011).

8
9

The Court notes a state court adjudicates a claim “on the merits” for purposes of §
v

2254(d) when it decides the petitioner’s right to relief based on the substance of the federal

10

claim, rather than on another basis precluding state court merits review. Runningeagle v. Ryan,

11

686 F.3d 758, 768-69 (9th Cir. 2012) (citing Harrington v. Richter, 562 U.S. 86, 98-100 (2011)

12

(when a state court decision is ambiguous, and so it is “a close question” on whether the state

13

court denied a petitioner’s claim on procedural grounds or on the merits, a federal court must

14

presume that the state court adjudicated the claim on the merits)).

15
16

B. Ground 1: Invalid Restraint
In Ground 1, petitioner alleges that the State never obtained a “judicially-ratified”

17

indictment, and therefore, the State’s power to restrain petitioner for the attempted murder

18

charge is invalid. Dkt. 7 at 5. Petitioner contends that this is a violation of his due process rights

19

and that he was “arbitrarily detained.” Id.

20

In finding Ground 1 lacked merit, the Washington Court of Appeals stated:

21

[Petitioner] argues that the trial court lacked jurisdiction because there was no
judicial determination made of probable cause for the attempted second degree
murder charge. Smith was arrested on June 3, 2013. A judge found probable cause
for the crime of second degree assault on June 4, 2013, within the required 48 hours
under CrR 3.2.1. Smith appears to contend that an additional judicial determination
of probable cause was required when the State amended its complaint in December

22
23
24

REPORT AND RECOMMENDATION - 8

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 9 of 20

1
2
3
4
5

2013 to add a charge of attempted second degree murder. He does not cite any
competent authority requiring such an additional judicial determination of probable
cause for an added charge. Nor does he cite any competent authority that the lack
of such an additional judicial determination of probable cause deprives the trial
court of jurisdiction.
Dkt. 16-3 at 315.
Petitioner appears to argue that the trial court lacks jurisdiction because the trial court

6

failed to make a probable cause finding when the original information was amended to add the

7

attempted murder charge. Dkt. 7 at 5. “CrR 2.1 provides that a criminal proceeding is

8

commenced when the State files an initial pleading either by indictment or information. From the

9

time an action is commenced, the superior court acquires jurisdiction.” State v. Barnes, 146

10

Wash. 2d 74, 81 (2002) (internal citations and quotations omitted). Washington state law

11

requires “a judicial determination of probable cause no later than 48 hours following the person’s

12

arrest, unless probable cause has been determined prior to such arrest.” CrR 3.2.1(a). This

13

determination is made at the defendant’s preliminary appearance. CrR 3.2.1(e).

14

The state court record shows that petitioner was arrested on June 3, 2013 on a charge of

15

second-degree assault. See Dkt. 16-3 at 217, 220. On June 4, 2013, less than 48 hours after

16

petitioner’s arrest, a judge determined probable cause existed for petitioner’s arrest. Id. at 221,

17

224. On December 10, 2013, the prosecuting attorney filed an amended information. Dkt. 16-4 at

18

211-14. In the amended information, petitioner was charged with attempted murder in the first

19

degree. Id. at 211. The prosecuting7attorney filed a second amended information on October 7,

20

2014; the second amended information included counts of attempted murder in the first degree

21

and attempted murder in the second degree. Id. at 216-17.

22
23

The record shows that petitioner received a judicial determination of probable cause
within 48 hours of his arrest. Under state law, the trial court acquired jurisdiction over petitioner.

24

REPORT AND RECOMMENDATION - 9

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 10 of 20

1

Petitioner fails to show that the amended information impacted the trial court’s jurisdiction.

2

Rather, petitioner’s prosecution by amended information without a judicial determination of

3

probable cause is not a violation of the federal constitution. The Court concludes that the state

4

court’s determination that petitioner’s rights were not violated when petitioner was tried by an

5

amended information without an additional probable cause hearing was not contrary to, or an

6

unreasonable application of, clearly established federal law.

7

To the extent that petitioner attempts to argue that federal law is violated because

8

Washington state law does not entitle him to indictment by a grand jury, “[pjrosecution by

9

information instead of by indictment is provided for by the laws of Washington. This is not a

10

violation of the Federal Constitution.” Gaines v. State of Washington, 277 U.S. 81, 86 (1928)

11

(citing Hurtado v. California, 110 U. S. 516 (1884)). “[A] judicial hearing is not [a] prerequisite

12

to prosecution by information.” Gerstein v. Pugh, 420 U.S. 103, 119 (1975). Moreover, the Fifth

13

Amendment Grand Jury Clause, which guarantees indictment by grand jury in federal

14

prosecutions, was not incorporated by the Fourteenth Amendment to apply to the states. See,

15

Branzburg v. Hayes, 408 U.S. 665, 687-88 n. 25 (1972) (noting that “indictment by grand jury is

16

not part of the due process of law guaranteed to state criminal defendants by the Fourteenth

17

Amendment”); see also, Rose v. Mitchell, 443 U.S. 545, 557 n. 7 (1979); Gerstein v. Pugh, 420

18

U.S. 103, 118-119 (1975); Alexander v. Louisiana, 405 U.S. 625, 633 (1972); Beckv.

19

Washington, 369 U.S. 541, 545 (1962); Gaines v. Washington, 227 U.S. 81, 86 (1928). Thus,

20

petitioner was not entitled to an indictment by a grand jury.

21

Accordingly, the Court finds that Ground 1 should be denied.

22
23
24

REPORT AND RECOMMENDATION - 10

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 11 of 20

1
2

C. Ground 2: Exculpatory Evidence
In Ground 2, petitioner alleges that his rights were violated under Brady v. Maryland, 373

3

U.S. 83 (1963). Dkt. 7 at 7. Petitioner asserts that the prosecution fabricated audio evidence

4

“upon which petitioner’s imprisonment hangs.” Id. Petitioner asserts Brady requires the release

5

of public information and exculpatory evidence related to police fabricating information to get

6

false convictions. Id.

7

Respondent argues that petitioner is raising a claim under Napue v. Illinois, 260 U.S. 264

8

(1959) because the prosecution knowingly presented false evidence at trial. Dkt. 15 at 20-23.

9

However, petitioner specifically states that he is raising a Brady claim based on the State’s

10

failure to disclose the fabricated information, not a claim based on presenting false information.

11

See Dkt. 7 at 7. As petitioner has alleged a Brady claim, the Court will analyze his claim under

12

the Brady standard.

13

A prosecutor has an affirmative duty to disclose evidence favorable to a defendant. Kyles v.

14

Whitley, 514 U.S. 419,432 (1995). In Brady, the Supreme Court held “the suppression by the

15

prosecution of evidence favorable to an accused upon request violates due process where the

16

evidence is material either to guilt or to punishment, irrespective of the good faith or bad faith of

17

the prosecution.” 373 U.S. at 87. “There are three components of a Brady violation: ‘The evidence

18

at issue must be favorable to the accused, either because it is exculpatory, or because it is

19

impeaching; that evidence must have been suppressed by the State, either willfully or

20

inadvertently; and prejudice must have ensued.’” United States v. Price, 566 F.3d 900, 907 (9th

21

Cir. 2009) (quoting Strickler v. Greene, 527 U.S. 263, 281-82 (1999)).

22
23

To determine if the suppressed evidence is material, “the question is whether admission of
the suppressed evidence would have created a reasonable probability of a different result, so the

24

REPORT AND RECOMMENDATION - 11

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 12 of 20

1

defendant must show only that the government’s evidentiary suppression undermines confidence

2

in the outcome of the trial.” United States v. Stinson, 647 F.3d 1196, 1208 (9th Cir. 2011), as

3

amended (citation and internal quotation marks omitted). “To determine whether prejudice exists,

4

we look to the materiality of the suppressed evidence.” Id. The duty to disclose is limited to

5

material evidence favorable to the defense which is deemed to be in the prosecutor’s possession,

6

custody, or control. Kyles, 514 U.S. at 437-38. However, “the prosecutor’s duty to disclose under

7

Brady is limited to evidence a reasonable prosecutor would perceive at the time as being material

8

and favorable to the defense. Woods v. Sinclair, 764 F.3d 1109, 1127 (9th Cir. 2014).

9

Petitioner alleges that the prosecution was aware the voice mail recording (“the recording”)

10

of the assault and attempted murder was falsified and failed to provide this information to

11

petitioner. Dkt. 7, 17. As discussed in the factual background, portions of the assault and attempted

12

murder were recorded on petitioner’s cell phone. Petitioner contends that the recording, which was

13

presented at trial, was falsified and, without the recording, he would not have been convicted. Dkt.

14

7, 17.

15

The Washington Court of Appeals found that petitioner did not present sufficient,

16

competent evidence to warrant a hearing on his claim that the recording was doctored and

17

dismissed his claim as frivolous. Dkt. 16-3 at 316.

18

To support Ground 2, petitioner has submitted numerous documents and allegations that

19

the documents show fraudulent conduct by police officers. See Dkt. 17. However, petitioner has

20

not submitted credible evidence showing that the prosecution had possession, custody, or control

21

of evidence showing the recording was falsified and that any such information was not provided to

22

petitioner.

23
24

REPORT AND RECOMMENDATION - 12

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 13 of 20

1

The record contains a letter from Terry F. Hamel, an Audio Engineer with technical

2

expertise in “setup, recording, and processing of audio for live and pre-recorded music, live stage

3

performances, audio books and stories, and talk shows.” Dkt. 16-2 at 188; see also Dkt. 17 at 48-

4

49. Mr. Hamel states that he is “confident the recording presented to [him] is a compilation of

5

more than one recording.” Dkt. 16-2 at 188. Petitioner also attached an email from an individual

6

named Jamie Jackson to the prosecutor, which was apparently written during petitioner’s trial.

7

Dkt. 16-3 at 140. Ms. Jackson stated that she was present in the courtroom when the recording

8

was played and she believes that there were differences in the courtroom playback compared to

9

when she heard the recording two months earlier. Id. However, it is unclear whether Mr. Hamel

10

or Ms. Jackson have any experience or expertise in analyzing recordings. Further, there is no

11

evidence showing that the recording presented to Ms. Jackson two months before trial or to Mr.

12

Hamel was the recording possessed by the prosecution and used at trial.

13

Moreover, the evidence shows that petitioner was aware of the essential facts regarding

14

any alleged fabrication of the recording prior to trial. Petitioner moved to suppress the recording

15

prior to trial. See Dkt. 16-1 at 957-65, 1153. There is also evidence that petitioner’s counsel had

16

a different version of the recording prior to trial than the recording that was allegedly played

17

during the trial. See Dkt. 16-2 at 87. Thus, the record shows the recording was disclosed to

18

petitioner, and petitioner had the opportunity to discover alterations to the recording and cross-

19

examine the witnesses regarding any fabrication of the recording played at trial. See Cunningham

20

v. Wong, 704 F.3d 1143, 1154 (9th Cir. 2013) (quotation and citation omitted) (“Under Brady's

21

suppression prong, if the defendant is aware of the essential facts enabling him to take advantage

22

of any exculpatory evidence, the government’s failure to bring the evidence to the direct

23

attention of the defense does not constitute suppression.). Additionally, the prosecutor’s decision

24

REPORT AND RECOMMENDATION - 13

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 14 of 20

1

to play portions of the recording or have a separate recording containing portions of the recording

2

does not show the recording was fabricated nor constitute a Brady violation.

3

Petitioner has failed to show that the recording was falsified or that the prosecution was

4

aware of any alleged falsification and failed to provide that information to petitioner. See

5

Runningeagle v. Ryan, 686 F.3d 758, 769 (9th Cir. 2012) (“[T]o state a Brady claim, [petitioner] is

6

required to d<D more than ‘merely speculate’”); Downs v. Hoyt, 232 F.3d 1031, 1037 (9th Cir. 2000)

7

(rejecting a Brady claim, in part, because the petitioner’s arguments were speculative). Therefore,

8

the Court concludes that the state court’s determination that petitioner failed to show a Brady

9

violation was not contrary to, or an unreasonable application of, clearly established federal law.

10
11
12

Accordingly, the Court finds that Ground 2 should be denied.
D. Grounds 3 and 4
It is not clear that petitioner raised Grounds 3 or 4 to the highest state court. See Dkt. 15,

13

16. However, “[a]n application for a writ of habeas corpus may be denied on the merits,

14

notwithstanding the failure of the applicant to exhaust the administrative remedies available in

15

the courts of the State.” 28 U.S.C. § 2254(b)(2).

16
17

1. Ground Three: Theft ofLiberty
In Ground 3, petitioner alleges that the Vancouver Police Department (“VPD”)

18

unlawfully acquired petitioner’s phone 38 minutes before the assault and attempted murder

19

occurred. Dkt. 7 at 8.

20

Habeas relief may be granted “only on the ground that [petitioner] is in custody in

21

violation of the constitution or laws or treaties of the United States.” Wilson v. Corcoran, 562

22

U.S. 1, 5 (2010) (quoting 28 U.S.C. § 2254(a)). Here, petitioner does not allege that his

23

constitutional rights have been violated by the VPD’s allegedly unlawful acquisition of his

24

REPORT AND RECOMMENDATION - 14

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 15 of 20

1

phone. Petitioner fails to state how the alleged facts indicate a violation of any constitutional

2

provision, and Ground 3 does not appear to implicate the federal constitution. Petitioner’s

3

allegation that the prosecution failed to present exculpatory evidence with respect to the

4

recording has been addressed with respect to Ground 2. Thus, to the extent that petitioner

5

challenges the acquisition of his phone, he does not state a cognizable basis for federal habeas

6

relief. See James v. Borg, 24 F.3d 20, 26 (9th Cir. 1994) (“Conclusory allegations which are not

7

supported by a statement of specific facts do not warrant habeas relief.”).

8
9

Furthermore, petitioner has not provided sufficient evidence to show that his cell phone
was obtained prior to the assault and attempted murder. The record contains a document entitled

10

“Chain of custody report.” Dkt. 16-2 at 161; see also Dkt. 17 at 64. The report states that a cell

11

phone was logged on the report at 10:31:52 P.M. on June 2, 2013. Dkt. 16-2 at 161. It appears

12

that the victim called 911 at 11:18 P.M. on June 2, 2013. Dkt. 16-1 at 408. Thus, there is a

13

discrepancy between the chain of custody report, when the assault occurred, and when the victim

14

called 911. However, there is no indication that the “cell phone” listed on the chain of custody

15

report is petitioner’s cell phone. See Dkt. 16-2 at 161. Further, there is no explanation regarding

16

how this report is created and what the dates and times mean. See id. Moreover, evidence

17

presented during a hearing and at trial showed that Officer Ly Yong took possession of

18

petitioner’s phone at the hospital after the victim had been transported to the hospital following

19

the assault and attempted murder. See Dkt. 16-1 at 67-78, 525-28. The trial court also determined

20

that there was probable cause to obtain a search warrant to search petitioner’s phone after Officer

21

Yong heard the voice mail and took possession of the phone. Dkt. 16-1 at 96-100, 1043-46.

22

Petitioner does not challenge the trial court’s ruling. See Dkt. 7. Based on the record before the

23

Court, petitioner has not provided adequate evidence to show his phone was unlawfully obtained

24

REPORT AND RECOMMENDATION - 15

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 16 of 20

1

prior to, or after, the assault and attempted murder in an effort to fabricate a voice mail

2

recording.

3

Petitioner also contends that the VPD used the phone to violate the Computer Fraud and

4

Abuse Act (“CFAA”) by fabricating the voice mail recording after they unlawfully confiscated

5

his phone. Dkt. 7 at 8. Petitioner does not provide adequate evidence to support this contention,

6

nor does he explain how this is a violation of his federal constitutional rights. Moreover, the

7

CFAA “does not prohibit any lawfully authorized investigative, protective, or intelligence

8

activity of a law enforcement agency of.. . a State[.]” 18. U.S.C. § 1030. The trial court

9

determined that petitioner’s phone was lawfully seized and searched. Therefore, petitioner has

10

not shown VPD violated the CFAA or that he is entitled to federal habeas relief based on an

11

alleged violation of the CFAA.

12

In sum, Ground 3 fails to state a cognizable federal habeas claim. Further, petitioner has

13

not shown that his phone was unlawfully obtained by the VPD prior to, or after, the assault and

14

attempted murder leading to the fabrication of a voice mail recording. Accordingly, the Court

15

finds Ground 3 should be denied.

16

2. Ground 4: Actual Innocence

17
18
19

In Ground 4, petitioner alleges that he is actually innocent of the convicted crimes. Dkt. 7
at 10.
The Supreme Court has not recognized actual innocence as a stand-alone habeas claim.

20

See Herrera v. Collins, 506 U.S. 390, 404 (1993) (“[A] claim of ‘actual innocence’ is not itself a

21

constitutional claim, but instead a gateway through which a habeas petitioner must pass to have

22

his otherwise barred constitutional claim considered on the merits.”); Dist. Attorney’s Office for

23

Third Judicial Dist. v. Osborne, 557 U.S. 52, 71 (2009) (whether a federal right to be released

24

REPORT AND RECOMMENDATION - 16

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 17 of 20

1

upon proof of actual innocence exists is an open question). As recently as 2013, the Supreme

2

Court has observed: “We have not resolved whether a prisoner may be entitled to habeas relief

3

based on a freestanding claim of actual innocence.” McQuiggin v. Perkins, 133 S. Ct. 1924, 1931

4

(2013).

5

The Ninth Circuit has not resolved the issue, but assumed that a freestanding claim of

6

actual innocence based on newly discovered evidence may be viable in the context of a non-

7

capital case. Jones v. Taylor, 763 F.3d 1242, 1246 (9th Cir. 2014) (“We have not resolved

8

whether a freestanding actual innocence claim is cognizable in a federal habeas corpus

9

proceeding in the non-capital context, although we have assumed that such a claim is viable.”).

10

Where an actual innocence claim has been filed, Supreme Court and Ninth Circuit case law

11

“support the practice of first resolving whether a petitioner has made an adequate evidentiary

12

showing of actual innocence before reaching the constitutional question of whether freestanding

13

innocence claims are cognizable in habeas.” Osborne v. Dist. Attorney’s Office for Third Judicial

14

Dist., 521 F.3d 1118, 1131 (9th Cir. 2008) rev'd and remanded on other grounds, 557 U.S. 52

15

(2009) (citing Carriger v. Stewart, 132 F.3d 463, 476 (9th Cir. 1997); Herrera, 506 U.S. at 442-

16

44; House v. Bell, 547 U.S. 518 (2006)) (other citation omitted).

17

Here, even assuming such a claim is cognizable, petitioner has not presented new,

18

reliable evidence demonstrating that he is innocent. Rather, it appears that petitioner has simply

19

repackaged the information and evidence that was available at trial. See Sadler v. Bullard, 2019

20

WL 3021422, at *5 (W.D. Wash. June 7, 2019) (finding no freestanding actual innocence claim

21

where the petitioner presented no new evidence, but merely repackaged information and

22

evidence he presented at trial). To support his claim, petitioner has provided documents

23

including medical records, police records, laboratory reports, and an audio recording analysis.

24

REPORT AND RECOMMENDATION -17

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 18 of 20

1

Dkt. 17. Petitioner also appears to have filed a detailed interpretation of the evidence presented at

2

trial. Id. Petitioner essentially presents a list of evidence that he claims is deficient. However,

3

petitioner’s documentation provides, at most, a different interpretation of the evidence than that

4

found by the trial court. However, petitioner has not shown he did not commit the crimes of

5

second-degree assault and attempted second-degree murder. Rather, petitioner attempts to

6

challenge the sufficiency of the evidence produced at his trial. “Evidence that merely undercuts

7

trial testimony or casts doubt on the petitioner’s guilt, but does not affirmatively prove

8

innocence, is insufficient to merit relief on a freestanding claim of actual innocence.” Jones, 763

9

F.3d at 1251.

10
11
12

Accordingly, petitioner has not shown, nor does the Court find, the evidence is sufficient
to meet the actual innocence standard. The Court finds that Ground 4 should be denied.
III.

Evidentiary Hearing

13

The decision to hold an evidentiary hearing is committed to the Court’s discretion.

14

Schriro v. Landrigan, 550 U.S. 465, 473 (2007). “[A] federal court must consider whether such a

15

hearing could enable an applicant to prove the petition’s factual allegations, which, if true, would

16

entitle the applicant to federal habeas relief.” Id. at 474. In determining whether relief is

17

available under 28 U.S.C. § 2254(d)(1), the Court’s review is limited to the record before the

18

state court. Cullen, 563 U.S. at 181-82. A hearing is not required if the allegations would not

19

entitle petitioner to relief under §2254(d). Landrigan, 550 U.S. at 474. “It follows that if the

20

record refutes the applicant’s factual allegations or otherwise precludes habeas relief, a district

21

court is not required to hold an evidentiary hearing.” Id. The Court does not find it necessary to

22

hold an evidentiary hearing because, as discussed in this report and recommendation, petitioner’s

23

grounds for relief may be resolved on the existing state court record.

24

REPORT AND RECOMMENDATION - 18

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 19 of 20

1

IV.

Certificate of Appealability

2

A petitioner seeking post-conviction relief under 28 U.S.C. § 2254 may appeal a district

3

court’s dismissal of the federal habeas petition only after obtaining a certificate of appealability

4

from a district or circuit judge. See 28 U.S.C. § 2253(c). “A certificate of appealability may issue

5

.. . only if the [petitioner] has made a substantial showing of the denial of a constitutional right.”

6

28 U.S.C. § 2253(c)(2). Petitioner satisfies this standard “by demonstrating that jurists of reason

7

could disagree with the district court’s resolution of his constitutional claims or that jurists could

8

conclude the issues presented are adequate to deserve encouragement to proceed further.” Miller-

9

El v. Cockrell, 537 U.S. 322, 327 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).

10

No jurist of reason could disagree with this Court’s evaluation of petitioner’s claims or

11

would conclude the issues presented in the petition should proceed further. Therefore, the Court

12

concludes that petitioner is not entitled to a certificate of appealability with respect to the

13

petition.

14
15

V.

Conclusion
For the above stated reasons, the Court concludes that the petition should be denied.

16

Petitioner has not shown that the state courts’ adjudication of Grounds 1 and 2 was contrary to,

17

or an unreasonable application of, clearly established federal law. Further, the Court finds

18

Grounds 3 and 4 fail to state cognizable federal habeas claims. The Court also finds that an

19

evidentiary hearing is not necessary. Therefore, the Court recommends that the petition be

20

denied and a certificate of appealability not be issued.

21

As the Court finds a certificate of appealability should not be issued and that the petition

22

should not proceed further, the Court recommends any request for in forma pauperis on appeal

23

be denied.

24

REPORT AND RECOMMENDATION - 19

Case 3:19-cv-05394-RBL Document 42 Filed 05/11/20 Page 20 of 20

1

The Court also recommends all pending motions (see Dkt. 39) be denied as moot.

2

Pursuant to 28 U.S.C. § 636(b)(1) and Fed. R. Civ. P. 72(b), the parties shall have

3

fourteen (14) days from service of this Report to file written objections. See also Fed. R. Civ. P.

4

6. Failure to file objections will result in a waiver of those objections for purposes of de novo

5

review by the district judge. See 28 U.S.C. § 636(b)(1)(C). Accommodating the time limit

6

imposed by Fed. R. Civ. P. 72(b), the clerk is directed to set the matter for consideration on June

7

5, 2020, as noted in the caption.

8

Dated this 11th day of May, 2020.

9
10
/

11
J. Richard Creatura
United States Magistrate Judge

12
13
14
15
16
17
18
19
20
21
22
23
24

REPORT AND RECOMMENDATION - 20

Case 3:19-cv-05394-RBL Document 42-1 Filed 05/11/20 Page 1 of 2

1
2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

5
6
7

JOHN GARRETT SMITH
No. 3:19-cv-5394-RBL-JRC

8

Petitioner,

9

v.

10

RON HAYNES,

ORDER ADOPTING REPORT AND
RECOMMENDATION

11

Respondent.

12
13
14
15

THIS MATTER is before the Court on Magistrate Judge Creatura’s Report and
Recommendation [Dkt. # ], recommending denial of Petitioner §2254 habeas petition. Petitioner
has not objected.

16
(1)

The Report and Recommendation is ADOPTED;

(2)

Petitioner’s §2254 habeas petition is DENIED;

(3)

For the reasons articulated in the R&R, the Court will NOT issue a Certificate of

17
18
19

Appealability; and

20
21

(4)

22

The Clerk is directed to send copies of this Order to Petitioner, counsel for Respondent,

23

Petitioner’s in forma pauperis status is REVOKED in the event of an appeal.

and to the Hon. J. Richard Creatura.

24
25
26
ORDER - 1

Case 3:19-cv-05394-RBL Document 42-1 Filed 05/11/20 Page 2 of 2

1
2

IT IS SO ORDERED.
DATED this

day of Pick date..

3
4

Ronald B. Leighton
United States District Judge

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
ORDER - 2

Case 3:19-cv-05394-RBL Document 42-2 Filed 05/11/20 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

JOHN GARRETT SMITH,
Petitioner,

JUDGMENT IN A CIVIL CASE
CASE NO. 3:19-cv-05394-RBL-JRC

v.
RON HAYNES,
Respondent.

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.
X

Decision by Court. This action came to consideration before the Court. The issues have
been considered and a decision has been rendered.
THE COURT HAS ORDERED THAT the Petition be denied.
Dated [Pick the date]
William M. McCool
Clerk of Court
s/[Author]__
Deputy Clerk

1

Case 3:19-cv-05394-RBL Document 42-2 Filed 05/11/20 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

JOHN GARRETT SMITH.
Petitioner,

JUDGMENT IN A CIVIL CASE
CASE NO. 3:19-cv-05394-RBL-JRC

v.

RON HAYNES,
Respondent.

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.
X

Decision by Court. This action came to consideration before the Court. The issues have
been considered and a decision has been rendered.
THE COURT HAS ORDERED THAT the Petition be denied.
Dated [Pick the date]
William M. McCool
Clerk of Court
s/[Author]__
Deputy Clerk

